June 30, 2000

STEPHEN L. JOHNSON
DISTRICT MANAGER, CUSTOMER SERVICE
 AND SALES, SALT LAKE CITY

SUBJECT: Audit of the Salt Lake City District 2002 Winter Olympic Plan
         (Report Number FA-AR-00-002)

This report presents the results of our Audit of the Salt Lake City District Facilities
portion of the 2002 Winter Olympic Plan (Project Number 00RS005FA000). The
objectives of the audit were to evaluate the reasonableness of the Salt Lake City
District’s 2002 Olympic Project Plan and it’s compliance with Postal Service regulations.
Specifically, we reviewed the Facilities Decision Analysis Report dated May 3, 1999, the
contracting process, and the financial accounting methodology and controls.

The audit revealed several opportunities for improvements. Specifically, we determined
that the Facilities Decision Analysis Report dated May 3, 1999, did not accurately
represent the specific work to be performed at 24 facilities included in the Olympic Plan.
Documented criteria were not utilized when determining whether to include a facility in
the Olympic project, or identifying if specific repairs and alterations at each facility
should be included in the Olympic project. Additionally, the Olympic facilities project
was being implemented without a purchase plan. Finally, a facility project was not
properly coded and related costs were not identified as an Olympic project in the
Facilities Management System for Windows. Management generally agreed with our
recommendations and the actions taken or planned should correct the issues discussed
in this report. Management’s comments, in their entirety, are included in the appendix.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have questions, or need additional information please contact Anthony
Cannarella, director, Facilities, or me at (703) 248-2187.



Sylvia L. Owens
Assistant Inspector General
 For Business Protection

Attachment
cc: 	 Patrick R. Donahoe
      Clarence E. Lewis, Jr.
      Richard J. Strasser, Jr.
      Yvonne D. Maguire
      A. Keith Strange
      Anthony J. Vegliante
      Craig G. Wade
      William H. Hanson
      John R. Gunnels
Audit of Salt Lake City District                                  FA-AR-00-002
 2002 Winter Olympic Plan


                                   TABLE OF CONTENTS

Executive Summary
                                                    i

Part I

Introduction
    Background                                                       1

    Objective, Scope, and Methodology                                1

    Prior Audit Coverage                                             2


Part II

Audit Results

    Facilities Decision Analysis Report Policies and Procedures      3


    Determination of Criteria For Inclusion In Olympic Project       4

    Recommendations                                                  5
    Management’s Comments                                            5

    Evaluation of Management’s Comments                              5



    Purchase Plan To Ensure The Timely Completion of Olympic 

    Project                                                          6

    Recommendations                                                  6

    Management’s Comments                                            6

    Evaluation of Management’s Comments                              6


    Accountability For Expenditures To Be Charged To Olympic 

    Project                                                          7

    Recommendations                                                  7
    Management’s Comments                                            7

    Evaluation of Management’s Comments                              7


    Appendix. Management’s Comments                                  8

Audit of Salt Lake City District                                                        FA-AR-00-002
 2002 Winter Olympic Plan


                                     EXECUTIVE SUMMARY
 Introduction 	                    This report presents the results of our audit of the Salt Lake
                                   City District’s 2002 Olympic Plan and the implementation of
                                   the plan to date. The audit was a self-initiated review that
                                   was not included in our fiscal year (FY) 2000 audit workload
                                   plan.

 Results in Brief                  We observed that the Salt Lake City District and the
                                   Olympic Advisory Committees had prepared plans, which
                                   demonstrated a commitment to the success of the Facilities
                                   Olympic Project. However, we identified several
                                   opportunities for improvement. We determined that the
                                   Facilities Decision Analysis Report dated May 3, 1999, did
                                   not accurately represent the specific work to be performed
                                   in each of the 24 facilities. In addition, the criteria used to
                                   determine whether or not to include a facility in the Olympic
                                   project and to identify if specific repairs and alterations at
                                   each facility should be included in the Olympic project was
                                   not documented. Further, the Olympic facilities project was
                                   being implemented without a purchase plan. Finally, a
                                   facility project was not properly coded and related costs
                                   were not identified as an Olympic project in the Facilities
                                   Management System for Windows.

 Summary of                        We recommend that the chairman of the Olympic Advisory
 Recommendations                   Committees modify the Facilities Decision Analysis Report
                                   to accurately reflect the specific work to be performed for
                                   the Olympic project. In addition, written criteria for
                                   determining which facility should be included in the Olympic
                                   project and a purchase plan for monitoring and
                                   measurement of project implementation should be
                                   developed. Further, the chairman should ensure that all
                                   facility projects are properly coded as an Olympic project for
                                   cost tracking purposes.

 Summary of                        Management generally agreed with our recommendations
 Management’s                      and agreed that there are areas of their plan that can be
 Comments                          strengthened and the Postal Service is proceeding to do so.
                                   The Salt Lake City District manager stated that a Decision
                                   Analysis Report Modification has been prepared
                                   documenting the criteria used to identify facilities and
                                   related repairs in the Olympic project and submitted for
                                   approval. The district manager also stated that an enlarged
                                   and more accurate purchase plan is being prepared and



                                                     i
Audit of Salt Lake City District                                                    FA-AR-00-002
 2002 Winter Olympic Plan


                                   when completed will be made part of the official Olympic
                                   Plan. Further, management stated that district finance
                                   personnel have obtained log-on access to the Facilities
                                   Management System and have received instructions on
                                   how to reconcile financial reports between the various
                                   reporting systems.

 Overall Evaluation of             Management actions taken or planned are responsive to our

 Management’s                      recommendations. 

 Comments 





                                                   ii
Audit of Salt Lake City District                                                       FA-AR-00-002
 2002 Winter Olympic Plan


                                          INTRODUCTION
 Background                        On June 16, 1995, Salt Lake City was awarded both the
                                   2002 Olympic and Paralympic Games. The Salt Lake City
                                   District created an Olympic Advisory Committee to
                                   determine what involvement would be needed by the Postal
                                   Service to best prepare for this event. The Olympic
                                   Advisory Committee is chaired by the Salt Lake City District
                                   manager and comprised of representatives of the Postal
                                   Service’s Salt Lake City District, Law Department, and
                                   Western Area.

                                   Based on the Western Area vice president's request for
                                   assistance, the chief operating officer and executive vice
                                   president established a headquarters Olympic Advisory
                                   Committee. This committee is also chaired by the Salt Lake
                                   City District manager and is comprised of representatives
                                   from the Western Area and various departments from Postal
                                   Service Headquarters.

                                   To facilitate the Olympic project, the Salt Lake City District
                                   created an implementation plan that included a mission
                                   statement, goals, and details of the Postal Service’s
                                   approach to the 2002 Olympic Games. The plan also
                                   included a copy of the Facilities Decision Analysis Report
                                   dated May 3, 1999, with a total estimated cost of
                                   $4.9 million. The facilities plan was to expand 1 facility, and
                                   upgrade lobbies in 23 other facilities to project the new
                                   postal image.

 Objective, Scope, and             The objective of the review was to evaluate the
 Methodology                       reasonableness of the Salt Lake City District’s 2002
                                   Olympic Plan and it’s compliance with Postal Service
                                   regulations. Specifically, we reviewed the Facilities
                                   Decision Analysis Report dated May 3, 1999, the
                                   contracting process, and the financial accounting
                                   methodology and controls. We also considered lessons
                                   learned from our review of the Postal Services preparation
                                   and implementation of its Atlanta Olympic Facility
                                   Improvement Plan.

                                   During the review, we interviewed officials from the Salt
                                   Lake City District, Western Area, Denver Facilities Service
                                   Office, and Postal Service Headquarters Facilities. We
                                   reviewed the May 3, 1999, Facilities Decision Analysis




                                                    1
Audit of Salt Lake City District                                                        FA-AR-00-002
 2002 Winter Olympic Plan


                                   Report and its supporting documentation and Postal Service
                                   policies and procedures relative to the repairs and
                                   alterations at existing facilities detailed in the Olympic Plan.
                                   We also visited all facilities identified in the Salt Lake City
                                   District’s 2002 Olympic Plan.

                                   This audit was conducted from January through June 2000
                                   in accordance with generally accepted government auditing
                                   standards and included such tests of internal controls as
                                   were considered necessary under the circumstances. Upon
                                   completion of the fieldwork we discussed our conclusions
                                   and observations with appropriate management officials and
                                   included their comments, where appropriate.

 Prior Audit Coverage 	 An audit performed by the Office of Inspector General
                        entitled, Review of the Atlanta Olympic Facility Improvement
                        Plan, dated March 31, 1999, presented areas for
                        improvement in the development and execution of the
                        Atlanta Olympic Plan. Specifically, we presented
                        opportunities for improvement in obtaining appropriate
                        levels of approval and oversight of construction projects,
                        adhering to Postal Service policies and procedures for
                        construction and renovation projects, and managing the
                        contracting process, including the use of indefinite quantity
                        contracts.




                                                    2
Audit of Salt Lake City District                                                       FA-AR-00-002
 2002 Winter Olympic Plan


                                           AUDIT RESULTS
 Facilities Decision               We determined that the Facilities Decision Analysis Report
 Analysis Report                   dated May 3, 1999, did not accurately reflect the work to be
 Policies and                      performed in each of the 24 facilities identified as Olympic
 Procedures                        projects. Specifically, the Decision Analysis Report for the
                                   2002 Olympic project included work sheets for each facility;
                                   however, the line items in each facility worksheet did not
                                   necessarily represent the work to be performed.

                                   We found that some line items may not have been
                                   necessary or accurately presented and were only included
                                   to provide support for an estimated total cost for each
                                   facility. For example, according to an earlier version of the
                                   Decision Analysis Report one facility was slated to have a
                                   parking lot repair for $3,545 and another facility was
                                   supposed to have a slatwall installed at $5 per square foot.
                                   However, in the approved May 3, 1999, Decision Analysis
                                   Report the parking lot repair was deleted and the slatwall
                                   installation fell to $1 per square foot, even though the
                                   individual project totals never changed, and all other
                                   projects had a slatwall installation price of $5 per square
                                   foot.

                                   Thus, the Decision Analysis Report was not prepared as an
                                   analytical report for decision-making purposes as intended
                                   by Postal Service regulations. Instead, the report was
                                   prepared as a funding document based on general scope of
                                   work derived from preliminary surveys conducted at each
                                   facility. The scope of work did not have the detail necessary
                                   to identify specific work at each facility or to develop
                                   accurate cost estimates. More specifically, accurate and
                                   detailed documentation did not exist to:

                                      •	   Utilize in the evaluation and approval process of the
                                           Facilities Decision Analysis Report.

                                      •	   Plan work to be performed with realistic timelines.

                                      •	   Estimate cost of work to be performed.

                                      •	   Award contracts with defined scopes of work.

                                      •	   Measure performance and return on investment.




                                                     3
Audit of Salt Lake City District                                                      FA-AR-00-002
 2002 Winter Olympic Plan



                                   Postal Service regulations require that the Facilities
                                   Decision Analysis Report provide sufficient detail, including
                                   backup documentation, to enable the approving officials to
                                   make an informed decision regarding the best use of Postal
                                   Service funds. The project’s cost estimate should be based
                                   on a defined and written scope of work and is a key
                                   component in management’s evaluation of a project and
                                   consideration for approval.




                                                    4
Audit of Salt Lake City District                                                         FA-AR-00-002
 2002 Winter Olympic Plan




 Determination of                  The audit also disclosed that written criterion was not used
 Criteria for Inclusion            to determine whether or not to include a facility in the
 in Olympic Project                Olympic project and if specific repairs and alterations at
                                   each facility should be included.

                                   The undocumented criterion used to determine whether or
                                   not to include a facility in the Olympic project was the
                                   proximity of each facility to the Olympic venue. As the plan
                                   was refined, the rationale to include or exclude facilities, and
                                   specific repairs and alterations at affected facilities, were not
                                   documented. In addition, there were insufficient written
                                   criteria or documentation to determine if repairs and
                                   alterations to existing facilities in the Salt Lake City District
                                   should be included in the Olympic project.

                                   Postal Service regulations require that the Facilities
                                   Decision Analysis Report contain, not only, clear scope of
                                   work, but also, supporting justifications for each affected
                                   facility. Without this documentation, we question whether
                                   Postal Service was able to accurately estimate the cost of
                                   the Olympic project. Reasonable cost estimates were
                                   needed to determine the appropriate level of management
                                   approval.

                                   Since the project total was less than $5 million, the area
                                   Capital Investment Committee and the area vice president
                                   were able to approve the Olympic project. If the project total
                                   had exceeded $5 million the deputy postmaster general and
                                   other headquarters officers are required to approve the
                                   project up to $7.5 million, and the postmaster general is
                                   required to approve projects valued from $7.5 to $10 million.
                                   Once the cost of a project exceeded $10 million it needs
                                   Board of Governors approval.

 Recommendations                   We offer the following recommendations:

                                   The Salt Lake City District manager, as the Chairman of the
                                   Olympic Advisory Committees, should:

                                   1. Ensure that documented criteria are developed to
                                      determine whether a facility should be included in the
                                      Olympic project, including related facility repairs and
                                      alterations.




                                                     5
Audit of Salt Lake City District                                                      FA-AR-00-002
 2002 Winter Olympic Plan


                                   2. Ensure that an accurate scope of work is prepared for
                                      each facility to be included in the Olympic project.

                                   3.	 Recalculate the estimated cost for each facility and the
                                       Olympic facilities project as a whole based on detailed
                                       scopes of work prepared in response to
                                       recommendation 2.

                                   4. Use the results of actions taken in response to
                                      recommendations 1 through 3 to prepare a Facilities
                                      Decision Analysis Report Modification for submission
                                      and approval by the appropriate levels of Postal Service
                                      Management.

 Management’s                      The Salt Lake City District manager agreed that there are
 Comments                          areas of their plan that can be strengthened and the Postal
                                   Service is proceeding to do so. In addition, the district
                                   manager indicated agreement with all four
                                   recommendations stating that a Decision Analysis Report
                                   Modification has been prepared documenting the criteria
                                   used to identify facilities and related repairs in the Olympic
                                   project. He also stated that the Decision Analysis Report
                                   modification has been submitted for approval by appropriate
                                   Postal Service management. Furthermore, he stated that
                                   each Olympic facility project would have a final design and
                                   cost estimate prepared prior to issuance of the solicitation
                                   for construction proposals.

 Evaluation of                     Overall, management’s comments are responsive to our
 Management’s                      recommendations and the actions taken or planned should
 Comments                          correct the issues discussed in this report.




                                                    6
Audit of Salt Lake City District                                                     FA-AR-00-002
 2002 Winter Olympic Plan




 Purchase Plan to                  The audit disclosed the absence of a documented purchase
 Ensure the Timely                 plan, which typically includes the purchasing method, type
 Completion of the                 of contract, estimated project cost, and the schedule to
 Olympic Project                   complete the project. Postal Service regulations require
                                   individual purchase plans for all new construction projects
                                   and for all repair and alteration projects. Without a
                                   purchase plan postal officials would be unable to monitor or
                                   measure progress of the Olympic project or prioritize and
                                   adjust the scheduling of work.

 Recommendation 	                  We offer the following recommendation:

                                   5. The Salt Lake City District manager as the Chairman of
                                      the Olympic Advisory Committees should ensure that a
                                      formal purchase plan is developed to enable Postal
                                      Service management to monitor and evaluate the
                                      performance and status of the Olympic facilities project.

 Management’s 	                    The Salt Lake City District manager agreed with the
 Comments 	                        recommendation stating that an enlarged and more
                                   accurate purchase plan is being prepared and when
                                   completed will be made part of the official Olympic Plan.

 Evaluation of                     While management’s comments are responsive to our
 Management’s                      recommendation, we may obtain and review a copy of the
 Comments                          purchase plan when completed.




                                                    7
Audit of Salt Lake City District                                                        FA-AR-00-002
 2002 Winter Olympic Plan


Accountability for                 Senior management officials use the Facilities Management
Expenditures to Be                 System for Windows database to track costs, monitor
Charged to Olympic                 progress, and base decisions relating to facilities projects.
Project                            During the audit, a Facilities headquarters official identified
                                   an instance where a facility project was not properly coded
                                   as an Olympic project in the Facilities Management System
                                   for Windows. This instance was found while the official was
                                   demonstrating the Facilities Management System. In this
                                   regard, we noted that there were no routine controls in place
                                   to ensure that information entered into the Facilities
                                   Management System Windows database was accurate or
                                   complete.

                                   Further review disclosed that the Salt Lake City District was
                                   tracking all Olympic related expenses in the Postal Service
                                   Financial Report. However, a review of the Salt Lake City
                                   District Olympic accounting process revealed that this report
                                   was not being reconciled with the Facilities Management
                                   System For Windows database. Reconciliation of the two
                                   reports would help ensure that both databases were
                                   complete and accurate for the basis of management
                                   decisions. The reconciliation would also help to ensure the
                                   accuracy of the Olympic project’s total cost.

Recommendation                     We offer the following recommendation:

                                   6. The Salt Lake City District manager as the Chairman of
                                      the Olympic Advisory Committees should ensure district
                                      finance personnel reconcile entries in the Facilities
                                      Management System for Windows with the Olympic
                                      project related costs as recorded in the Postal Service
                                      Financial Report.

Management’s                       The Salt Lake City District manager indicated agreement
Comments                           with the recommendation stating that district finance
                                   personnel have obtained log-on access to the Facilities
                                   Management System and have received instructions on
                                   how to reconcile financial reports between the various
                                   reporting systems.

Evaluation of                      Management’s comments are responsive to our

Management’s                       recommendations. 

Comments 





                                                     8
Audit of Salt Lake City District                        FA-AR-00-002
 2002 Winter Olympic Plan


                      APPENDIX. MANAGEMENT’S COMMENTS




                                     9
Audit of Salt Lake City District        FA-AR-00-002
 2002 Winter Olympic Plan




                                   10
Audit of Salt Lake City District        FA-AR-00-002
 2002 Winter Olympic Plan


 Major Contributors to
 This Report




                                   11
